             EVALUATION REPORT


    Information Security Risk Evaluation of Region III – Lisle, IL



              OIG-12-A-22          September 26, 2012




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                           September 26, 2012




MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    INFORMATION SECURITY RISK EVALUATION OF
                            REGION III – LISLE, IL (OIG-12-A-22)


Attached is the Office of the Inspector General’s (OIG) evaluation report titled,
Information Security Risk Evaluation of Region III - Lisle, IL.

The report presents the results of the subject evaluation. The agency agreed with the
evaluation findings at the August 10, 2012, exit conference, and provided comments on
September 25, 2012, which were incorporated, as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Team,
at 415-5913.

Attachment: As stated
                         Information Security Risk Evaluation of
                                   Region III – Lisle, IL




                               Contract Number: GS-00F-0001N
                               NRC Order Number: D12PD01191

                                                September 25, 2012




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
[Page intentionally left blank]
                                                                   Information Security Risk Evaluation of
                                                                                      Region III – Lisle, IL


EXECUTIVE SUMMARY


BACKGROUND

      The U.S. Nuclear Regulatory Commission (NRC) Office of the Inspector General tasked
      Richard S. Carson & Associates, Inc., to perform an information security risk evaluation
      of NRC’s regional offices and the Technical Training Center. This report presents the
      results of the information security risk evaluation for the Region III office, which is
      located in Lisle, Illinois.

OBJECTIVES

      The Region III information security risk evaluation objectives were to:

             Perform an independent information security risk evaluation of the NRC
             information technology (IT) security program, policies, and practices for
             compliance with the Federal Information Security Management Act (FISMA) of
             2002 in accordance with Office of Management and Budget guidance and Federal
             regulations and guidelines as implemented at Region III.
             Evaluate the effectiveness of agency security control techniques as implemented
             at Region III.

RESULTS IN BRIEF

      Region III has made improvements in its implementation of NRC’s IT security program
      and practices for NRC IT systems since the previous evaluations in 2003, 2006, and
      2009. All corrective actions from the previous evaluations have been implemented.
      However, the Region III IT security program and practices are not always consistent with
      NRC’s IT security program, as summarized below.

      Continuity of Operations and Recovery

      Server administration procedures, including backup procedures are not maintained and
      kept up-to-date as required.

      IT Security Program

      Regional procedures and divisional instructions specific to the Region III IT security
      program are not kept up-to-date. As a result, steps or processes could be skipped or
      forgotten if personnel responsible for a particular activity are unavailable. In addition,
      outdated procedures make it more difficult when training new personnel to handle a
      specific activity.




                                                i
                                                            Information Security Risk Evaluation of
                                                                               Region III – Lisle, IL


RECOMMENDATIONS

     This report makes recommendations to the Executive Director for Operations to improve
     NRC’s IT security program and implementation of FISMA at Region III. A consolidated
     list of recommendations appears on pages 11 of this report.




                                           ii
                                                       Information Security Risk Evaluation of
                                                                          Region III – Lisle, IL


ABBREVIATIONS AND ACRONYMS


ATO          Authority to Operate
CSO-STD      Computer Security Office Standard
FISMA        Federal Information Security Management Act
ISSO         Information Systems Security Officer
IT           Information Technology
LAN          Local Area Network
MD           Management Directive
NIST         National Institute of Standards and Technology
NRC          Nuclear Regulatory Commission
OIG          Office of the Inspector General
OMB          Office of Management and Budget
RP           Regional Procedure
SGI          Safeguards Information
SP           Special Publication




                                     iii
                                  Information Security Risk Evaluation of
                                                     Region III – Lisle, IL




[Page intentionally left blank]




              iv
                                                                                        Information Security Risk Evaluation of
                                                                                                           Region III – Lisle, IL


TABLE OF CONTENTS


Executive Summary ....................................................................................................... i
Abbreviations and Acronyms ..................................................................................... iii

1 Background .............................................................................................................. 1
2 Objectives ................................................................................................................. 2
3 Findings .................................................................................................................... 2
  3.1 Continuity of Operations and Recovery ........................................................ 3
            3.1.1 Region III Servers ........................................................................................... 3
            FINDING #1: Server Administration Procedures Are Not Up-to-Date ....................................... 3
            3.1.2 Server Administration Requirements............................................................ 3
            3.1.3 Agency Has Not Fully Met Requirements ..................................................... 4
            3.1.4 Impact on Region III Operations .................................................................... 5
    3.2     Information Technology Security Program ................................................... 5
            3.2.1 Region III Laptop Systems ............................................................................. 5
            FINDING #2: Some Laptops Do Not Have a Current Authority To Operate ............................. 5
            3.2.2 Laptop System Requirements ....................................................................... 6
            3.2.3 Agency Has Not Fully Met Requirements ..................................................... 6
            3.2.4 Regional Procedures and Instructions ......................................................... 7
            FINDING #3: Regional IT Security Program Procedures Are Not Kept Up-to-Date ................. 7
            3.2.5 Requirements for Updating Procedures ....................................................... 8
            3.2.6 Agency Has Not Fully Met Requirements ..................................................... 8
            3.2.7 Impact on Region III Operations .................................................................... 9
4 Consolidated List of Recommendations ............................................................. 11

Appendix.               OBJECTIVES, SCOPE, AND METHODOLOGY ......................................... 13




                                                               v
                                  Information Security Risk Evaluation of
                                                     Region III – Lisle, IL




[Page intentionally left blank]




              vi
                                                                               Information Security Risk Evaluation of
                                                                                                  Region III – Lisle, IL


1       Background

The U.S. Nuclear Regulatory Commission (NRC) has four regional offices that conduct
inspection, enforcement, investigation, licensing, and emergency response programs for nuclear
reactors, fuel facilities, and materials licensees. The regional offices are the agency’s front line
in carrying out its mission and implementing established agency policies and programs
nationwide. The Region III office oversees regulatory activities in the northern midwestern
United States; is located in Lisle, Illinois; and operates under the direction of a Regional
Administrator. The region covers a seven-State area, including six States with nuclear power
plants. Region III also oversees materials licensees in Missouri, which is located in Region IV.

Office of Management and Budget (OMB) Circular A-130, Management of Federal Information
Resources, Appendix III, Security of Federal Automated Information Resources, requires
agencies to implement and maintain an information technology (IT) security program, including
the preparation of policies, standards, and procedures. An effective IT security program is an
important managerial responsibility. Management establishes a positive climate by making
computer security a part of the information resources management process and providing support
for a viable IT security program.

On December 17, 2002, the President signed the E-Government Act of 2002, which included the
Federal Information Security Management Act (FISMA) of 2002. 1 FISMA outlines the
information security management requirements for agencies, which include an annual
independent evaluation of an agency’s information security program2 and practices to determine
their effectiveness. This evaluation must include testing the effectiveness of information security
policies, procedures, and practices for a representative subset of the agency’s information
systems. The evaluation also must include an assessment of compliance with FISMA
requirements and related information security policies, procedures, standards, and guidelines.
FISMA requires the annual evaluation to be performed by the agency’s Office of the Inspector
General (OIG) or an independent external auditor.3

NRC maintains an IT security program to provide appropriate protection of information
resources. In this regard, the role of the NRC OIG is to provide oversight of agency programs,
including the IT security program in support of the NRC goal to ensure the safe use of
radioactive materials for beneficial civilian purposes while protecting people and the
environment.


1
  The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the
  E-Government Act of 2002 (Public Law 107-347) and replaces the Government Information Security Reform Act,
  which expired in November 2002.
2
  NRC uses the term “information security program” to describe its program for ensuring that various types of
  sensitive information are handled appropriately and are protected from unauthorized disclosure in accordance with
  pertinent laws, Executive orders, management directives, and applicable directives of other Federal agencies and
  organizations. For the purposes of FISMA, the agency uses the term IT security program.
3
  While FISMA uses the language “independent external auditor,” OMB Memorandum M-04-25, FY 2004
  Reporting Instructions for the Federal Information Security Management Act, clarified this requirement by stating,
  “Within the context of FISMA, an audit is not contemplated. By requiring an evaluation but not an audit, FISMA
  intended to provide Inspectors General some flexibility…”


                                                         1
                                                                    Information Security Risk Evaluation of
                                                                                       Region III – Lisle, IL


In support of its FISMA obligations, the NRC OIG tasked Richard S. Carson & Associates, Inc.,
to perform an information security risk evaluation of NRC’s regional offices and the Technical
Training Center to evaluate IT security programs in place at those locations, to include an
assessment of potential physical security weaknesses, and to identify existing problems and
make recommendations for corrective actions.

The information security risk evaluation focused on the following elements of NRC’s IT security
program, policies, and practices:

       Physical and Environmental Security Controls.
       Logical Access Controls.
       Configuration Management.
       Continuity of Operations and Recovery.
       IT Security Program.

This report presents the results of the information security risk evaluation for Region III. A
consolidated list of recommendations appears on page 11.

2      Objectives

The Region III information security risk evaluation objectives were to:

       Perform an independent information security risk evaluation of the NRC IT security
       program, policies, and practices for compliance with FISMA in accordance with OMB
       guidance and Federal regulations and guidelines as implemented at Region III.
       Evaluate the effectiveness of agency security control techniques as implemented at
       Region III.

The report appendix contains a description of the evaluation objectives, scope, and methodology.

3      Findings

Region III has made improvements in its implementation of NRC’s IT security program and
practices for NRC IT systems since the previous evaluations in 2003, 2006, and 2009. All
corrective actions from the previous evaluations have been implemented. However, the Region
III IT security program and practices are not always consistent with NRC’s IT security program
as defined in Management Directive (MD) and Handbook 12.5, NRC Automated Information
Systems Security Program; other NRC policies; FISMA; and National Institute of Standards and
Technology (NIST) guidance. While many of the Region III automated and manual IT security
controls are generally effective, some IT security controls need improvement. Specifics on
continuity of operations and recovery and the Region III IT security program are described in the
following sections.




                                                 2
                                                                   Information Security Risk Evaluation of
                                                                                      Region III – Lisle, IL


3.1    Continuity of Operations and Recovery

Region III procedures for maintaining continuity of operations and recovery are generally
consistent with the requirements in MD and Handbook 12.1, NRC Facility Security Program;
MD and Handbook 12.5; and NIST Special Publication (SP) 800-53, Recommended Security
Controls for Federal Information Systems. Region III has documented server administration
procedures, including procedures for backups of seat-managed and NRC-managed servers.
Region III has also developed a site-specific Occupant Emergency Plan and a contingency plan
for the Region III Private Branch Exchange.

However, the evaluation team found that server administration procedures, including backup
procedures, are not maintained and kept up-to-date as required.

3.1.1 Region III Servers

Region III is supported by IT equipment that is both seat-managed and NRC-managed. Core
regional servers are provided and managed by the seat management contractor and include
domain controllers, mail servers, multipurpose servers, a tape server, and virtual servers. Seat-
managed servers are included in the authorization boundary of the IT Infrastructure system.
Additional regional servers are owned and managed by Region III and include a database server
and knowledge management servers. NRC-managed servers at Region III are included in the
authorization boundary of the Region III Site System.

FINDING #1: Server Administration Procedures Are Not Up-to-Date

MD and Handbook 12.5, NRC standards, and NIST SP 800-53 detail requirements for certain
aspects of server administration, including backups of IT systems. However, Region III has not
met all the requirements. Specifically, server administration procedures, including backup
procedures, are not maintained and kept up-to-date as required.

3.1.2 Server Administration Requirements

MD and Handbook 12.5 detail requirements for backups of IT systems, and states that these
procedures should be implemented when backing up media to ensure that reliable backups are
available if there is a need for system or file recovery. These procedures include, but are not
limited to:

       Backup schedule – outlines the type of backup, the interval for each backup, the storage
       location, and the number of copies of each backup.
       Full backups – performed at least weekly.
       Incremental (differential) backups – performed nightly.
       Location of backups – at least two full backups maintained. One should remain onsite
       and a second copy should be removed to an offsite storage facility immediately after its
       creation.




                                                3
                                                                                  Information Security Risk Evaluation of
                                                                                                     Region III – Lisle, IL


           Backup media – use high-quality media to ensure good quality backups are available for
           recovery should the need arise.
           Storage of backups – store both onsite and offsite backups in a location, cabinet, or safe
           that is waterproof and fireproof for at least 14 days or as recommended by the agency.
           Testing of storage – backups are periodically tested to ensure they can be used effectively
           to restore sensitive information.

Computer Security Office Standard (CSO-STD) 2002, System Back-up Standard, V1.1, dated
December 15, 2010, states backup and recovery procedures are to be developed, documented,
approved, maintained, and used for all systems operated by or on behalf of NRC.

CSO-STD-2001, Operating Procedures Standard, V1.1, dated April 15, 2011, states that
documented and periodically reviewed operational procedures and responsibilities capture the
requirements for secure operation of information systems and effective management and support
of IT systems. This standard requires system owners to ensure operating procedures are
reviewed and approved on a periodic basis, at least annually.

3.1.3 Agency Has Not Fully Met Requirements

Region III has developed server administration procedures, including backup procedures, for
both seat-managed servers and NRC-managed servers. These procedures are documented in DI-
NR-008, Server Administration, dated September 10, 2010. The seat-management contractor is
responsible for performing backups of both seat-managed and NRC-managed serves. While
Region III has developed and documented required backup procedures, the procedures do not
reflect the server infrastructure currently in place in Region III. For example, DI-NR-008
includes a list of seat-managed and NRC-managed servers covered by the document; however,
this list includes several servers that have been decommissioned and does not include several
new servers. In addition, DI-NR-008 states that all servers listed Section C of the document are
included in the backup procedures when, in fact, they are not. The Region III seat-management
contractor is not responsible for performing backups of the Citrix servers located in Region III.
In addition, the seat-management contractor is frequently asked by headquarters to create a
Ghost4 image of a server that headquarters needs to patch (e.g., Citrix server, badge access
system server). This process is currently ad hoc and there is no set schedule. In addition,
procedures for creating Ghost images, including where those images are stored, are not
documented.

In addition to outdated backup procedures, DI-NR-008 also includes references to the previous
seat-management contractor. The seat-management contract was transitioned to the current
contractor in December 2011. This document also includes a section describing role-based
access to Region III servers; however, this section is not up-to-date and does not reflect the
current server infrastructure in place in Region III.



4
    Ghost (general hardware-oriented system transfer) is a software product that creates full system (disk image)
    backups.


                                                            4
                                                                    Information Security Risk Evaluation of
                                                                                       Region III – Lisle, IL


3.1.4 Impact on Region III Operations

While the server administration procedures that are currently implemented would ensure server
availability during core hours and minimize data loss in the event of a computer failure, the
procedures are not up-to-date. For example, software performs many of the backups
automatically, but someone must ensure the backup jobs include all required servers and run
without errors. The procedures need to be current so that if the primary personnel responsible
for server administration are not available, alternates have the information necessary to follow
the procedures. Current procedures can also be useful when training new employees with
responsibilities for server administration.

RECOMMENDATION

      The Office of the Inspector General recommends that the Executive Director for Operations:

      1. Update DI-NR-008, Server Administration, to (i) reflect the current Region III server
         infrastructure; (ii) document current backup procedures for seat-managed and NRC-
         managed servers; (iii) document procedures for creating Ghost images, including where
         those images are stored; (iv) define the schedule for creating Ghost images; (v) correct
         references to the current seat-management contractor; and (vi) correct any other sections
         impacted by the changes to the server infrastructure or the transition to the new seat-
         management contractor.

3.2      Information Technology Security Program

Overall, Region III is following agency security policies and procedures regarding IT security.
Region III has developed regional procedures and divisional instructions that are generally up-to-
date and are available on the Region III internal Web site. Staff receive training regarding IT
security during the onboarding process and the Information Systems Security Officer (ISSO)
sends periodic cybersecurity reminders on topics. Users are generally aware of and are
following agency and Region III IT security policies and procedures.

However, the evaluation team found issues with the Region III laptop systems and with keeping
Region III IT security program procedures up-to-date.

3.2.1 Region III Laptop Systems

Laptops in use at Region III are either seat-managed laptops or NRC-owned laptops. Seat-
managed laptops in use at Region III include those laptops that are part of the agency’s new work
from anywhere/mobile desktop program. NRC-owned laptops in use at Region III include loaner
laptops and laptops used to process safeguards information (SGI) or classified information.

FINDING #2: Some Laptops Do Not Have a Current Authority To Operate

The NRC Laptop Security Policy, which specifies the requirements for authorization of laptop
systems, states that all NRC laptops must be either designated a system or included as part of an
existing system. NRC-owned laptops in use at Region III include loaner laptops and laptops


                                                  5
                                                                    Information Security Risk Evaluation of
                                                                                       Region III – Lisle, IL


used to process SGI or classified information. However, the evaluation team found that some
NRC-owned laptops do not have a current authority to operate (ATO). As a result, Region III is
not fully compliant with NRC requirements for laptop systems.

3.2.2 Laptop System Requirements

The NRC Laptop Security Policy states that all NRC laptops must either be designated a system
or be included as part of an existing system. All laptops that are not seat-managed are
considered to be organization-managed, i.e., NRC-owned. All NRC-owned laptops that process
or access classified national security information belong to that office’s or region’s “Classified
Laptop System.” All NRC-owned laptops that process or access SGI and are not part of the
office’s or region’s “Classified Laptop System” belong to that entity’s “SGI Laptop System.”
All NRC-owned laptops that are not part of the office’s or region’s “Classified Laptop System”
or the office’s or region’s “SGI Laptop System” belong to that entity’s “General Laptop
System.”

The NRC Laptop Security Policy also specifies the following requirements for authorization
(formerly referred to as accreditation):

       Laptop systems must meet the requirements provided in the relevant standard security
       plan. There is a different standard security plan for classified, SGI, and general laptops.
       Laptop systems must be certified by the system owner as compliant with the relevant
       laptop system requirements.
       Laptop systems must be accredited by the appropriate Designated Approving Authority
       prior to processing any relevant (i.e., classified, SGI, sensitive unclassified) information
       on the system.
       Certification of a laptop system requires a system certification memorandum from the
       laptop system owner. The memorandum must include an enclosure that provides the
       names and contact information for the: System Owner, Certification Agent, ISSO,
       Alternate ISSO, and System Administrator.
       For each laptop or removable hard drive that is part of the laptop system, the enclosure
       must provide information such as physical storage location, location where system is
       used, brand, model, tag number, peripherals, etc.

3.2.3 Agency Has Not Fully Met Requirements

Region III currently has one laptop system – a general laptop system with a current ATO that
covers the Region III loaner laptops. Region III also has three SGI laptops still on the NRC
inventory of systems. During the site visit to Region III, the evaluation team was unable to
determine whether the three SGI laptops were still in use and therefore should be covered under
a Region III SGI laptop system with a current ATO. Subsequent to the site visit, Region III
informed the evaluation team the three SGI laptops are no longer in use and are in the process of
being decommissioned. Therefore, there is no need for Region III to establish a Region III SGI
laptop system to cover these three laptops.




                                                 6
                                                                   Information Security Risk Evaluation of
                                                                                      Region III – Lisle, IL


3.2.4 Regional Procedures and Instructions

Region III uses various types of procedures to inform the staff of standardized regional practices,
division-level directives related to policy and operational matters, and general information,
including policies, practices, and guidance specific to the Region III IT security program. These
procedures include regional procedures, regional notices, and division instructions. Regional
procedures are policies, practices, or guidance affecting more than one division or programmatic
area within the regional office or programs in more than one strategic arena. They are intended
to be of a permanent or long-term nature and remain in effect until they are revised or cancelled.
Regional notices are intended to keep the staff informed, but do not establish comprehensive
policy for the staff to follow. All notices contain an expiration date. Division instructions are
policies, practices, or guidance affecting one division or programmatic area and are used to
disseminate detailed guidance at the division level for implementing procedures or other agency
policy.

The following are some examples of regional procedures and divisional instructions specific to
the Region III IT security program:

       RP-12.1, Region III Facility Security Program, dated October 8, 2010 – describes the
       policies, controls, and employee responsibilities for the protection of Region III
       personnel, property, and unclassified facilities.
       DI-12.1, Region III Security System Testing Process, dated January 4, 2012 – provides
       guidance and instructions related to the processes necessary for Region III to perform
       NRC-required security system tests.
       DI-12.1, Badging Procedures, dated April 27, 2012 – provides details and procedures for
       enrolling, obtaining, activating, distributing, and monitoring security badges in NRC
       Region III office space.
       DI-NR-006, Region III Switchboard Operations, dated October 20, 2010 – a procedure
       and handbook that establishes and provides guidance for contractors and NRC personnel
       responsible for day-to-day operations of the Region III switchboard and reception area.
       DI-NR-008, Server Administration, dated September 10, 2010 – provides a standardized
       mode of operation to support the network servers used in Region III.

FINDING #3: Regional IT Security Program Procedures Are Not Kept Up-to-Date

NRC has developed several security standards that specify the frequency of reviewing and
updating IT security program procedures. However, as discussed in finding 1 and further
described in the following sections, regional procedures and divisional instructions specific to
the Region III IT security program are not kept up-to-date. As a result, steps or processes could
be skipped or forgotten if personnel responsible for a particular activity are unavailable. In
addition, outdated procedures make it more difficult when training new personnel to handle a
specific activity.




                                                 7
                                                                   Information Security Risk Evaluation of
                                                                                      Region III – Lisle, IL


3.2.5 Requirements for Updating Procedures

CSO-STD-0020, Organization Defined Values for System Security Controls, Revision 1.1, dated
July 1, 2012, defines the mandatory values for specific controls in the 18 security controls
families described in NIST SP 800-53. The standard requires that documented procedures to
facilitate the implementation of a control should be reviewed and updated annually. The
standard also requires system owners to review system security plans at least annually and
update them to address changes to the information system and/or environment of operation.
CSO-STD-2001 states that documented and periodically reviewed operational procedures and
responsibilities capture the requirements for secure operation of information systems and
effective management and support of IT systems. This standard requires system owners to
ensure operating procedures are reviewed and approved on a periodic basis, at least annually.

Regional Procedure (RP) 3.57, System of Procedures, Notices, and Division Instructions, dated
October 15, 2009, controls activities associated with the development, revision, and cancellation
of regional procedures, regional notices, and division instructions in sufficient detail to ensure
processing standardization. RP-3.57 requires procedures and instructions to be reviewed or
revised, at a minimum, every 3 years.

3.2.6 Agency Has Not Fully Met Requirements

Region III has developed several regional procedures and divisional instructions specific to the
Region III IT security program. However, as discussed in finding 1, the evaluation team found
that DI-NR-008 is not up-to-date. In addition, the evaluation team found that the following
regional procedures and divisional instructions are also not up-to-date:

       RP-12.1, Region III Facility Security Program – Section F.4.h describes the requirement
       to review access permissions to the Region III server room and local area network (LAN)
       closets (that are equipped with card readers) on a semiannual basis. However, this
       process is now performed quarterly as part of the testing of the Region III security
       system. In addition, sections F.4.c and F.4.f of this document describe the old color-
       coded NRC identification badges.
       DI-12.1, Region III Security System Testing Process – as of June 2012, the quarterly
       security system test also includes a review of access permissions to the Region III server
       room and LAN closets (that are equipped with card readers). This document does not
       describe the process for performing that review.
       DI-NR-006, Region III Switchboard Operations – section IV.B.3 of the handbook
       describes the old color-coded NRC identification badges. Some of the functions
       described in this document are now performed by the protective security officer (e.g.,
       performing an audit of all temporary badges); however, this document assigns those
       duties to the receptionist.

RP-3.57 requires procedures and instructions to be reviewed or revised, at a minimum, every 3
years. However, per NRC security standards, some procedures require more frequent review and
update – at least annually for documented procedures to facilitate the implementation of security
controls in the 18 security controls families described in NIST SP 800-53 and for operational


                                                 8
                                                                   Information Security Risk Evaluation of
                                                                                      Region III – Lisle, IL


procedures that capture the requirements for secure operation of information systems and for
effective management and support of IT systems.

3.2.7 Impact on Region III Operations

Outdated procedures can result in steps or processes being skipped or forgotten if personnel
responsible for a particular activity are unavailable. In addition, outdated procedures make it
more difficult when training new personnel to handle a specific activity. Current procedures
ensure continuity in performing a specific IT security function in the event of staff turnover and
are excellent for training new personnel and an excellent reference for existing personnel.

RECOMMENDATIONS

   The Office of the Inspector General recommends that the Executive Director for Operations:

   2. Update RP-12.1, Region III Facility Security Program, to describe the current
      requirement to review access permissions to the Region III server room and LAN closets
      (that are equipped with card readers) on a quarterly basis and to reflect the current NRC
      employee badge characteristics.
   3. Update DI-12.1, Region III Security System Testing Process, to describe the current
      requirement to review access permissions to the Region III server room and LAN closets
      (that are equipped with card readers) on a quarterly basis.
   4. Update DI-NR-006, Region III Switchboard Operations, to reflect the current NRC
      employee badge characteristics and to describe functions now performed by the
      protective security officer instead of the receptionist.
   5. Update RP-3.57, System of Procedures, Notices, and Division Instructions, to specify
      which regional procedures and divisional instructions require annual review and update.




                                                 9
                                  Information Security Risk Evaluation of
                                                     Region III – Lisle, IL




[Page intentionally left blank]




              10
                                                                  Information Security Risk Evaluation of
                                                                                     Region III – Lisle, IL


4      Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Update DI-NR-008, Server Administration, to (i) reflect the current Region III server
       infrastructure; (ii) document current backup procedures for seat-managed and NRC-
       managed servers; (iii) document procedures for creating Ghost images, including where
       those images are stored; (iv) define the schedule for creating Ghost images; (v) correct
       references to the current seat-management contractor; and (vi) correct any other sections
       impacted by the changes to the server infrastructure or the transition to the new seat-
       management contractor.
    2. Update RP-12.1, Region III Facility Security Program, to describe the current
       requirement to review access permissions to the Region III server room and LAN closets
       (that are equipped with card readers) on a quarterly basis and to reflect the current NRC
       employee badge characteristics.
    3. Update DI-12.1, Region III Security System Testing Process, to describe the current
       requirement to review access permissions to the Region III server room and LAN closets
       (that are equipped with card readers) on a quarterly basis.
    4. Update DI-NR-006, Region III Switchboard Operations, to reflect the current NRC
       employee badge characteristics and to describe functions now performed by the
       protective security officer instead of the receptionist.
    5. Update RP-3.57, System of Procedures, Notices, and Division Instructions, to specify
       which regional procedures and divisional instructions require annual review and update.




                                               11
                                  Information Security Risk Evaluation of
                                                     Region III – Lisle, IL




[Page intentionally left blank]




              12
                                                                   Information Security Risk Evaluation of
                                                                                      Region III – Lisle, IL


Appendix.          OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES

The Region III information security risk evaluation objectives were to:

        Perform an independent information security risk evaluation of the NRC IT security
        program, policies, and practices for compliance with FISMA in accordance with OMB
        guidance and Federal regulations and guidelines as implemented at Region III.
        Evaluate the effectiveness of agency security control techniques as implemented at
        Region III.

SCOPE

The scope of this information security risk evaluation included:

        The three floors Region III occupies at 2443 Warrenville Road, Suite 210, Lisle, Illinois
        60532-4352.
        Region III seat-managed equipment.
        Region III NRC-managed equipment.

The information security risk evaluation did not include controls related to the management of
safeguards or classified information.

The evaluation work was conducted during a site visit to Region III in Lisle, IL, between August
6, 2012, and August 10, 2012. Any information received from the agency subsequent to the
completion of fieldwork was incorporated when possible. Throughout the evaluation, evaluators
were aware of the potential for fraud, waste, or misuse in the program.

METHODOLOGY

Richard S. Carson & Associates, Inc., conducted a high-level, qualitative evaluation of the NRC
IT security program, policies, and practices as implemented at Region III, and evaluated the
effectiveness of agency security control techniques as implemented at Region III.

In conducting the information security risk evaluation, the following areas were reviewed:
physical and environmental security controls, logical access controls, configuration management,
IT security program, and continuity of operations and recovery. Specifically, the evaluation
team conducted site surveys of the three floors Region III occupies at 2443 Warrenville Road,
Suite 210, Lisle, Illinois 60532-4352, focusing on the areas that house IT equipment. The team
conducted interviews with the Region III ISSO, the seat-management server administrator, the
Region III server administrator, and other Region III staff members responsible for
implementing the agency’s IT security program at Region III. The evaluation team also
conducted user interviews with 14 Region III employees, including two Resident Inspectors and
one teleworker. The team reviewed documentation provided by Region III including floor plans,



                                                13
                                                                 Information Security Risk Evaluation of
                                                                                    Region III – Lisle, IL


inventories of hardware and software, local policies and procedures, security plans, backup
procedures, contingency plans, and the Occupancy Emergency Plan. The information security
risk evaluation also included a network vulnerability assessment scan of the Region III network
and the Region III Resident Inspector sites.

All analyses were performed in accordance with guidance from the following:

       NIST standards and guidelines.
       NRC MD and Handbook 12.5, NRC Automated Information Security Program.
       NRC Computer Security Office policies, processes, procedures, standards, and
       guidelines.
       NRC OIG audit guidance.

The work was conducted by Jane M. Laroussi, CISSP, CAP, GIAC ISO-17799; and Joseph
Rood, GWAPT, CISSP, CISA, from Richard S. Carson & Associates, Inc.




                                               14
